■<7 A
No.

'

u

/

(H! P?

<!■

G O)

u' lir-Ci

c.r n-x n

Supreme Court, U.S”
FILED

ICS 2 ? 2321
IN THE

i

OFFICE OF TKF CLEP.K

SUPREME COURT OF THE UNITED STATES

Lisa Truong - As a pro se PETITIONER
VS.
UTC Aerospace Systems - RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT

ON PETITION FOR A WRIT OF CERTIORARI TO

Lisa Truong
6232 Vincent Ave So
Richfield, MN 55423

952-652-3141

Page 1 | 15

I

j

QUESTION(S) PRESENTED

With a goal of addressing the facts in this case, Petitioner asks if the Supreme
Court of the United States will authorize the release of Petitioner's "complete"
Personal File so that reason and legitimacy of job termination can be determined.
Petitioner also asks the United States Supreme Court to provide a ruling on the
dismissal of discrimination and harassment at UTC which does not match the facts
of the case on the lower court.
UTC has caused petitioner years of emotional damage. She developed depression,
anxiety and migraine dealing with the harassment and now petitioner on
prescription medicate daily. What will the court do to hold UTC accountable for
the damage they have caused the petitioner?

Page 2 | 15

LIST OF PARTIES

(X) All parties appear in the caption of the case on the cover page.
() All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Lisa Truong- Pro Se-Petitioner

UTC Aerospace Systems Inc. - Respondents
C/o Allyson L. Johnson
Seyfarth Shaw LLP
700 Milam Street, Suite 1400
Houston, Texas 77002-2812
C/o Julia A. Pozo
Seyfarth Shaw LLP
700 Milam Street, Suite 1400
Houston, Texas 77002-2812
C/o Kyle A. Peterson
Seyfarth Shaw LLP
233 S. Wacker Dr., Suite 8000
Chicago, IL 60606
Page 3 | 15

RELATED CASES

Truong vs. UTC Aerospace Systems, REF: 66750, Minnesota Department of
Human Rights. Commissioner entered July 21, 2016.
Truong vs. UTC Aerospace Systems, 0:18-cv-00941-PJS-BRT, U. S. District
Court District of Minnesota. Judgement entered October 21, 2019.
Truong vs. UTC Aerospace Systems, No: 20-1769, U. S. Court of Appeals for
The Eighth Circuit. Judgement entered January 20, 2021.

P a g e 4 | 15

TABLE OF CONTENTS

OPINIONS BELOW

8

JURISDICTION

10

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

11

STATEMENT OF THE CASE

12

REASONS FOR GRANTING THE WRIT,

14

CONCLUSION

15

Page 5 | 15

INDEX TO APPENDICES

APPENDIX A. UNITED STATES COURT OF APPEALS FOR THE EIGHTH CIRCUIT
APPENDIX B. U.S. DISTRICT COURT U.S. DISTRICT OF MINNESOTA
APPENDIX C. FEES FOR TRANSCRIPTS
APPENDIX D. U.S. EQUAL EMPLOYMENT OPPORTUNITY COMMISSION
APPENDIX E. MINNESOTA DEPARTMENT OF HUMAN RIGHTS

P a g e 6 | 15

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES

N/A

STATUTES AND RULES

N/A

OTHER

N/A

Page 7 | 15

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.

OPINIONS BELOW
(X) For cases from federal courts:
The opinion of the United States court appeals appears at Appendix A. to
the petition and is
(X) Reported at u.s.

court of appeals for the eighth circuit;

or

() has been designated for publication but is not yet reported; or,
() is unpublished.

The opinion of the United States district court appears at Appendix B. to
the petition and is
(X) Reported at U.S. District Court. U.S. District of Minnesota; or
() has been designated for publication but is not yet reported; or,
() is unpublished.

Page 8 | 15

(X) For cases from states courts:
The opinion of the highest state court to review the merits appears at
Appendix E. to the petition and is
(X) Reported at Minnesota Department of Human Rights; or,
() has been designated for publication but is not yet reported; or,

court,

The opinion of the
Appears at Appendix

to the petition is
or,

() reported at
() has been designated for publication but is not yet reported; or,
() is unpublished.

P a g e 9 | 15

JURDSDICTION
(X) For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
December 17, 2020.
() No petition for rehearing was timely filed in my case.
(X) A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: January 20, 2021, and a copy of the order
denying rehearing appears at Appendix A.
() An extension of time to file the petition for a writ of certiorari was
granted to and including

(date) on

(date)in

Appendix No._________
The jurisdiction of this Court is invoked under 28 U. S.C. &1254(1)

() For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix
() A timely petition for rehearing was thereafter denied on the following
date:___

and a copy of the order denying rehearing appears at

Appendix
() An extension of time to file the petition for a writ of certiorari was
granted to and including
No.

(date) on

(date) in Appendix

A_____.

The jurisdiction of this Court is invoked under 28 U. S. C. &1257(a).

Page 10 | 15

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

N/A

Page 11 | 15

STATEMENT OF THE CASE

As a Pro So Petitioner has no experience in the Rule of the Law and Constitutional
Law. Petitioner is pursuing justice and exposing the mistreatment of majorities
within UTC Aerospace Systems. Petitioner experienced years of harassment,
discrimination and abuse. Petitioner seek help among management and Human
Resources as they looked the other way to protect the company.
Petitioner wonder how many cases claimed of Harassed and discrimination
without lawyers has opportunity represents on The United States Supreme Court?
Respondent violated the UTC policies by presenting Petitioner a written Plan of
Action and NOT following that document. Appears at Appendix E.
Since 2015 to 2019 Petitioner was brought to Human Resources office more than
35 times where Petitioner was harassed and verbally abused by Supervisor and
Human Resource office. Appears at Appendix E.
Dec 19, 2015 after Petitioner was criticized by Sylvia P in her Performance
Feedback and was graded 2 out of 4. An investigation provided by UTC Aerospace
was demanded by MN Department of Human Rights and discovered that
Petitioner was third-best inspector of 41 based off her performance. Appears at
Appendix E.
On July 3, 2018 Petitioner received Written Warning- Attendance/unplanned
absences. According to protocol, Petitioner should have received a verbal
warning, but never did. The written warning indicated a pattern of calling in sick
on days that had been previously requested as vacation and denied by supervisor.
Petitioner disagree and asked respondent to provide that date evidence. That
information has never been shared with the Petitioner. Appears at Appendix E.

Page 12 | 15

On July 12, 2018 upon which the termination was changed to a suspension.
Petitioner has repeatedly requested her personal file and reason for termination,
but previous decisions were denied the right to know. Appears at Appendix B.
Petitioner received her "personal file" from respondent, but that file included
only personal "hire on" information and all the UTC policies. This personal file
showed a clean record that did not include any written warnings or notes of any
violations. During Petitioners Appeal for the United States Court of Appeals for
the Eight Circuit petitioner requested to see the complete employee profile.
UTC has caused petitioner years of emotional damage. She developed depression,
anxiety and migraine dealing with the harassment and now petitioner takes
prescribed medication daily.
While this case is still active, Petitioner does not want to pay the respondents
transcript fee. Appears at Appendix C. Can this fee be waived for Petitioner?

Page 13 | 15

REASON FOR GRANTING THE PETITION
The Judge never gave a direct reason for UTC treatment of petitioner. Petitioner
arrived to this stage using the best of her knowledge and on her own as she does
not have the means to have the support of a lawyer. Petitioner does not have
experience nor an educational background regarding law. Petitioner feels that
this case was dismissed, because Petitioner lacks the proper knowledge to
present this case. There are facts to represent the petitioner's case, but no facts
have been shared by lower courts for their decisions. Not only does petitioner
request that the harassment and discrimination be address, but I also request
that the facts from the decisions be shared.
To this day petitioner does not understand how she violated any of UTC policies
and yet was repeatedly mistreated for those accusations. Petitioner came to UTC
with high level skill and years of good experience. Petitioner was a victim of
harassment and discrimination at UTC.
Everywhere in the whole world petitioner believes every single case at the Courts
must showed evidence on both side no matter what.

Page 14 | 15

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Lisa Truong

Date: April 24, 2021

Page 15 | 15

